No.

IN THE
SUPREME COURT OF THE UNITED STATES
Alexander J. Silvers - PETITIONER
vs.
Secretrary, Department of Corrections - RESPONDENT(S)
PROOF OF SERVICE
I, Alexander J. Silvers,
20

do swear or declare that on this date,

., as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney General PL-01, The Capitol,
Tallahassee, Florida 32399-1050
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 5une 0.5^

., 2000

fLty/>jt//hAnA-4 n

(Signature)

8

Additional material
from this filing is
available in the
Clerk's Office.

